         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over the
National Environmental Policy Act
Decisions at the Idaho Operations
Office




OAS-M-05-08                            August 2005
alternative approaches for treating the high-level waste at the Idaho Site. The Final EIS
identified the Department's preferred alternative as follows: "DOE's preferred waste processing
alternative is to implement the proposed action by selecting from among the action alternatives,
options and technologies analyzed in this EIS [based on the criteria discussed below] … The
selection of any one of, or combination of, technologies or options used to implement the
proposed action would be based on performance criteria that include risk, cost, time, and
compliance factors." Subsequently, contractors were asked to bid on the cleanup work and
propose specific technologies.

The Council's Associate Director for NEPA Oversight, "agreed that DOE's preferred alternative
and phased decision making do meet the objectives of NEPA so long as DOE provides
opportunities for public input when evaluating alternative technologies and the environmental
impact of those technologies remains within the range of impacts analyzed in the Final EIS."
Consistent with the Council's comments, the Department held a series of public meetings with
interested stakeholders on the six alternative approaches to treating sodium-bearing waste.
However, these meetings could not focus on the preferred technology because, under the
Department's strategy, the preferred technology was to be identified after the competitive
procurement process.

In March 2005, the Department selected CH2M-WG Idaho, LLC (CWI) to manage the
environmental cleanup at the Idaho Site. CWI has proposed a specific steam reforming
technology to treat the site's sodium bearing waste. A decision on CWI's proposed technology
will not be made until the Department issues a Record of Decision. Current plans are to identify
the preferred technology in a Federal Register notice where the public will have 30 days to
respond, and then the Department will issue the Record of Decision.

The public had an opportunity to comment on steam reforming and the other technologies, which
were fully analyzed in the Final EIS. However, the public has not been able to comment on the
selection of steam reforming as the preferred alternative. Accordingly, in keeping with the
Council's guidance that the public have opportunities to provide input on alternative
technologies, we offer the following recommendations.

RECOMMENDATIONS

We recommend that the Manager, Idaho Operations Office, ensure that the Department's Federal
Register notice clearly:

     1. Describe the basis for preferring the proposed technology over alternative technologies;

     2. Explain how the impacts of the proposed technology are within the range of impacts
        assessed in the Final EIS; and,

     3. Request stakeholder comments on the preferred alternative and state that this
        information will be considered prior to issuance of the Record of Decision.




                                                2
This will allow the stakeholders the opportunity to provide additional input on the preferred
alternative and meet the Council's requirements. Subsequently, the Department will be able to
consider this information prior to issuance of the Record of Decision.

MANAGEMENT REACTION

The Idaho Operations Office concurred with all three recommendations. The Office is preparing
a Federal Register Notice containing language that indicates what the Department has considered
when identifying its preferred Sodium Bearing Waste treatment technology. The Federal
Register Notice will reference the June 2005 Supplement Analysis (SA) to the Final EIS. The
SA will be publicly available. It concludes that the impacts of the Department's preferred
technology are adequately represented by the information presented in the Final EIS. Further,
the Department will include language in the Federal Register Notice indicating where to send
comments and that they will be considered before the Department issues a Record of Decision.
Management's verbatim comments are attached.

SCOPE AND METHODOLOGY

The audit was performed from July 8, 2004, through May 26, 2005, at the Department's Idaho
Operations Office in Idaho Falls, Idaho. The audit scope was limited to NEPA activities at the
Idaho Operations Office since 1997. To accomplish the audit, we obtained and reviewed NEPA
planning documents which included categorical exclusions, environmental assessments, and
environmental impact statements; researched Council and Departmental regulations; reviewed
findings from prior audit reports; assessed internal controls and performance measures
established under the Government Performance and Results Act of 1993; and, interviewed key
personnel in the Idaho Operations Office.

The audit was performed in accordance with generally accepted Government auditing standards
for performance audits and included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. Because our review was limited,
it would not have necessarily disclosed all internal control deficiencies that may have existed at the
time of our audit. Also, since we did not rely upon automated data processing equipment to
accomplish our audit objective, we did not conduct an assessment of the reliability of computer
processed data. We held an exit conference with Idaho Operations Office; Office of
Environmental Management; and Office of Environment, Safety and Health personnel on June 15,
2005.

We appreciate the cooperation of your staff as well as the staff at the Idaho Operations Office
during our review.

Attachment




                                                 3
                                                                                                                          Attachment

                                                    Management Comments




  Date:    July 25, 2005

Subject:   Idaho Operations Office Comments to Draft Office of Inspector General (OIG) Audit Report A04ID006, titled:
           "National Environmental Policy Act Decisions at the Idaho Operations Office" (AS-RMD-FS-05-040)

    To:    George W. Collard, Assistant Inspector General for Audit
           Services
           Office of Inspector General
           DOE-HQ, IG-32/FORS

           We have reviewed the subject draft report attached to IG-30 memorandum of July 7, 2005.
           We concur in the three recommendations, and are taking appropriate action as indicated in our attached comments.

           In addition, the Department believes that it has fully complied with all Department of Energy and Council on
           Environmental Quality regulations implementing the National Environmental Policy Act. The Department
           therefore requests that the Office of the Inspector General remove the word "generally" from the first sentence in
           the Conclusions and Observations section of the audit report.

           If you have questions or would like additional information, please contact Nicolas Nicolayeff, Audit Liaison, on
           (208) 526-0172.




                                                              Paul B. Keele, Acting Assistant Manager
                                                              Administration Services

           Attachment




                                                                   4
                         DOE Idaho Operations Office's Comments to
                Draft Office of Inspector General (OIG) Audit Report A04ID006
          "National Environmental Policy Act Decisions at the Idaho Operations Office"



Recommendation 1: That the Manager, Idaho Operations Office (DOE-ID), ensure that
the Department's Federal Register Notice clearly describe the basis for preferring the
proposed technology over alternative technologies.
Management Comments:

Concur. DOE-ID is preparing a Federal Register Notice containing language that indicates
what the Department has considered when identifying its preferred Sodium Bearing Waste
treatment technology. The language is similar to that found in the preferred alternative
discussion in the Final Idaho High-Level Waste and Facilities Disposition Environmental
Impact Statement (Final EIS) Summary.


Recommendation 2: That the Manager, Idaho Operations Office, ensure that the
Department's Federal Register Notice clearly explain how the impacts of the proposed
technology are within the range of impacts assessed in the Final EIS.
Management Comments:

Concur. The Federal Register Notice will reference the June 2005 Supplement Analysis (SA)
to the Final EIS. The SA will be publicly available. It concludes that the impacts of the
Department's preferred technology are adequately represented by the information presented
in the Final EIS. Because the SA contains data and analysis supporting this conclusion, the
Federal Register Notice will not provide details, but will indicate that the impacts of the
preferred technology are within the range of impacts assessed in the Final EIS.


Recommendation 3: That the Manager, Idaho Operations Office, ensure that the
Department's Federal Register Notice clearly request stakeholder comments on the
preferred alternative and state that this information will be considered prior to issuance of
the Record of Decision.

Management Comments:

Concur. Although not required by NEPA regulations, the Department will include
language in the Federal Register Notice indicating where to send comments and that they
will be considered before DOE issues a Record of Decision.




                                               5
                                                                    IG Report No. OAS-M-05-08

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
